No. 19-1272
IN THE

Supreme Court of the United States
THOMAS CHRISTOPHER RETZLAFF,
Petitioner,
v.
JASON LEE VAN DYKE,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
CERTIFICATE OF SERVICE

Pursuant to Supreme Court Rules 29.3 and 29.5(b), I Marc J. Randazza,
counsel for Respondent Jason Lee Van Dyke, certify that on July 7, 2020, three copies
of this Brief of Respondent in Opposition to a Petition for a Writ of Certiorari were
served by third-party commercial carrier for delivery within 3 calendar days on
counsel for Petitioner:
Jeffrey L. Dorrell
HANSZEN LAPORTE
14201 Memorial Drive
Houston, Texas 77079

Daniel R. Ortiz
UNIVERSITY OF VIRGINIA SCHOOL OF LAW
SUPREME COURT LITIGATION CLINIC
580 Massie Road
Charlottesville, VA 22903

Marc J. Randazza
Dated: July 7, 2020.

